Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




             Recruiting
            Foster Parents




                    JANET REHNQUIST
                     Inspector General

                         MAY 2002
                       OEI-07-00-00600
                  OFFICE OF INSPECTOR GENERAL

                                    http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The OIG' s Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations
in order to reduce waste, abuse, and mismanagement and to promote economy and efficiency
throughout the Department.

Office of Evaluation and Inspections
The OIG' s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in the inspections reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental
programs.

Office of Investigations
The OIG' s Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or
civil monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global
settlement of cases arising under the Civil False Claims Act, develops and monitors corporate integrity
agreements, develops model compliance plans, renders advisory opinions on OIG sanctions to the health
care community, and issues fraud alerts and other industry guidance.
                            EXECUTIVE                    SUMMARY

PURPOSE

         To assess States’ efforts to recruit foster parents.

BACKGROUND

         State child welfare agencies are tasked with the responsibility of protecting children from
         abuse and neglect, which sometimes requires that children be removed from their homes
         and placed in foster care. Based on information reported to the Administration for
         Children and Families (ACF) via the Adoption and Foster Care Analysis and Reporting
         System (AFCARS), as of March 31, 2000, there were 581,000 children in foster care.
         Forty-seven percent of those children were cared for in non-relative foster family homes.

         The ACF has regulatory oversight of the Title IV-E foster care program. The Title IV-E
         foster care program is designed to assist States in covering the costs for children in foster
         care by providing States with unlimited matching funds for children who meet income
         eligibility and other program requirements. Federal expenditures for the Title IV-E foster
         care program totaled $4 billion in fiscal year (FY) 1999 and $4.3 billion in FY 2000.
         Federal funding for the Title IV-E foster care program totalled $4.4 billion in FY 2001.
         Estimated Federal funding for the program is $5.1 billion in FY 2002.

          This report focuses on States’ efforts to recruit foster care families. A separate report,
         “Retaining Foster Parents,” (OEI-07-00-00601), addresses the issues associated with the
         retention of these families. We used two mechanisms to conduct this inspection. We
         used a mail survey to obtain information from the foster care program managers in the
         50 States, the District of Columbia, Puerto Rico, and the Virgin Islands to determine their
         efforts to recruit foster care families. We also conducted focus group discussions with
         child welfare staff and foster parents in five States.




FINDINGS

Recruitment Efforts do not Focus on Families Willing and Able to Care for the
Most Challenging Children

         The foster care agencies use recruiting methods designed to cast a wide net and recruit
         a large volume of prospective foster parents. However, many families recruited in this
         manner are unwilling to care for school-age children, teenagers, and children with special
         needs. These children constitute the largest portion of children in foster care, thus


Recruiting Foster Parents                           i                                    OEI-07-00-00600
         creating an urgent need to recruit families who are willing and able to provide them with
         care.

States are Underutilizing Their Most Effective Recruitment Tool - Foster Parents

         Only 7 States are using foster parents regularly in their recruitment efforts even though
         survey respondents in 20 States said they find foster parents to be one of the most
         successful recruitment tools. Foster parents are effective recruiters because they share
         information about the need for foster parents through word-of-mouth contact and can
         promote the idea of fostering just by their presence in the community.

Poor Public Perceptions of Foster Care and Cumbersome Requirements Have a
Negative Impact on Recruitment

         Poor public perceptions of foster care discourage prospective foster parents. Unfavorable
         media portrayals depicting tragedies and abuses endured by foster children perpetuate
         negative perceptions about the current foster care system. Delayed responses to inquiries
         about becoming a foster parent, stringent requirements, and the length of time involved in
         becoming a foster parent also adversely effect States’ recruitment efforts and reinforce
         existing reservations about fostering.

States are Unable to Measure the Success of Their Recruitment Efforts

         The lack of performance indicators and information about recruitment expenditures
         renders many States unable to measure the success of their recruitment efforts. States
         lack the tools necessary to identify which methods of recruitment are most beneficial and
         cost effective.

RECOMMENDATIONS

         Our review allowed us to take a retrospective look at the effectiveness of foster care
         recruitment efforts. This review indicates that it may be time to rethink some aspects of
         the recruitment process. Clearly, substantial progress can be made towards improving
         recruitment efforts through the combined efforts of States, ACF, and national
         organizations, with particular emphasis on:

           !	       targeting recruitment efforts on parents for children who are the most difficult to
                    place;

           !        promoting positive public perceptions of foster care; and

           !	       improving information sharing about effective practices among key stakeholders
                    and increasing technical assistance for program managers.




Recruiting Foster Parents                            ii                                    OEI-07-00-00600
         We offer numerous suggestions that we believe will assist in efforts to strengthen the
         recruitment process.

AGENCY COMMENTS

         We received comments on this report from ACF. The ACF concurs with our findings
         and recommendations, stating that the information presented in this report will be useful
         to them in their continued efforts to meet the needs of children in need of care. Their
         comments emphasize ACF’s continued focus on the importance of children’s issues. In
         addition, ACF provided important contextual information and suggestions which served
         to enhance the report. We have made revisions to the report based on ACF’s comments.
         The full text of their comments is contained in the appendix.




Recruiting Foster Parents                        iii                                   OEI-07-00-00600
                            TABLE OF CONTENTS


                                                                                                                             PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Recruitment Efforts Not Targeted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Most Successful Recruitment Tool -- Foster Parents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          The Biggest Barriers -- Public Perceptions and Cumbersome Requirements . . . . . . . . . . 9


          The Missing Ingredient -- Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDIX


          Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                              INTRODUCTION
PURPOSE

         To assess States’ efforts to recruit foster parents.

BACKGROUND

         For a variety of reasons, some families are unable to provide safe environments for
         children. To protect these children, State child welfare agencies are tasked with the
         responsibility for removing children considered to be at-risk of abuse or neglect from
         their homes and placing them in foster care. In other instances, families voluntarily
         choose to have children removed from their homes and placed in foster care. In either
         situation, foster care placements provide children with temporary living arrangements,
         physical care, emotional support, and other services intended to protect and promote their
         growth and development until they can be reunited with their families or receive an
         alternative permanent placement (i.e., adoption or guardianship).

         The majority of children in the foster care system are cared for in foster family homes; the
         remainder are cared for in institutions, group homes, or other group settings. Based on
         information reported to the Administration for Children and Families (ACF) by 43 States,
         the District of Columbia, and Puerto Rico, via the Adoption and Foster Care Analysis and
         Reporting System (AFCARS) for the semi-annual reporting period March 31, 2000, there
         were approximately 581,000 children in foster care. Forty-seven percent of those
         children were cared for in non-relative foster family homes. The remaining 53 percent
         were cared for in a variety of foster care settings as outlined in Table 1 on the following
         page. Between April 1, 1998, and March 31, 1999, the number of children in foster care
         increased by 38,000. The mean length of time a child remained in foster care was
         32 months.

         The ideal foster care system would have a sufficient number of foster care families with
         the skills to meet the needs of the children removed from their homes. However, States
         are experiencing a shortage of families willing and able to provide foster care and a
         shortage of foster care families willing or able to meet the specific needs of the children
         in care (e.g., children with disabilities).

         This report focuses on States’ efforts to recruit foster care families. A separate report,
         “Retaining Foster Parents,” (OEI-07-00-00601), addresses the issues associated with the
         retention of these families.




Recruiting Foster Parents                           1                                    OEI-07-00-00600
                                                      Table 1

                                   Placement Settings of Children in Foster Care 

                                             During Fiscal Year 2000


                                                                                  Children in Placement
                             Placement Setting
                                                                              Per cent o f    Number of Foster
                                                                            Foster Children      Children

       Foster Family Homes (Non-Relative)                                         47              274,100

       Foster Family Homes (Relative)                                             26              151,864

       Institutions                                                               10               57,590

       Group Homes                                                                8                46,279

       Pre-Adoptive Homes                                                         4                22,484

       Trial H ome V isits (with own families)                                   2.7               15,818

       Runaway and H omeless Youth Shelters                                      1.4               7,886

       Supervised Independent Living Facilities                                   .9               4,979

       Total Num ber of Children in Foster Care                                  100              581,000
     Source: AFCARS 2000
     http://www.acf.dhhs.gov/programs/cb/publications/afcars/june2001.pdf


Federal Role in Foster Care

         Federal assistance for children and families began with implementation of the Aid to
         Families with Dependent Children (AFDC) program, Title IV-A of the Social Security
         Act, in 1935. The Federal role in foster care began in 1961, when Federal funds were
         made available to provide maintenance payments for children removed from AFDC
         eligible families in accordance with Federal requirements.

         The Federal role was further expanded with implementation of the Adoption Assistance
         and Child Welfare Act of 1980 (P.L. 96-272). This Act amended child welfare services
         laws to institute financial incentives for States to provide certain protections for children
         in foster care under Section 427 of the Social Security Act (Title IV-B) and established
         the Title IV-E foster care program. As a result, the foster care component of the AFDC
         program was transferred to the new Title IV-E foster care program in October 1982, and
         Federal Title IV-E foster care program funds became available to provide maintenance
         payments for children removed from AFDC eligible families in accordance with Federal
         requirements. The Adoption and Safe Families Act (ASFA) of 1997 provides States with
         the necessary tools and incentives to achieve the safety, permanency, and well-being
         goals of Public Law 96-272. Many States have chosen to recruit jointly for adoptive and
         foster families.




Recruiting Foster Parents                                         2                                        OEI-07-00-00600
         The Title IV-E foster care program is designed to assist States in providing safe and

         appropriate care for children in placements outside their homes, whether in foster family

         homes or residential child care facilities. The program provides unlimited matching

         funds to States to assist with the cost of certain foster care payments for children who

         meet income eligibility requirements and have been removed from their home as the

         result of a judicial determination that continuation in the home would be contrary to the

         welfare of the child. Funds are also available to cover certain administrative and training

         costs associated with the provision of foster care. 


         The ACF has regulatory oversight of the Title IV-E foster care program, including

         approval of State plans to ensure State foster care programs are operating within Federal

         guidelines. States administer their Title IV-E foster care programs in accordance with the

         approved State plans. The ACF recently began to monitor States’ conformity with their

         State plans through Children and Family Services reviews and Title IV-E foster care

         program eligibility reviews. 


         The ACF also provides limited technical assistance to States through the Children’s

         Bureau Training and Technical Assistance Network. The network comprises National

         Resource Centers, Clearinghouses, and Technical Assistance Support Systems. 

         However, most of the technical assistance provided through the network is focused on

         safety and permanency placements of children who enter the child welfare system. While

         States can request onsite training and technical assistance from the Network, they have

         received minimal technical assistance to assist them in their recruitment efforts. 


Funding for Foster Care

         Title IV-E is an entitlement program, therefore States can claim Federal reimbursement
         for foster care maintenance payments made on behalf of all children whose families meet
         the income eligibility criteria for program participation under Section 472 of the Social
         Security Act. The ACF provides States with Federal funds by reimbursing a certain
         percentage of each State’s own expenditures for foster care. The rates at which the
         Federal government reimburses the States’ Title IV-E foster care program expenditures
         for the cost of foster care itself are the same rates at which the Centers for Medicare and
         Medicaid Services matches State expenditures for medical assistance (Medicaid), and
         range between 50 and 78 percent. The Federal match rates for administrative and training
         costs for State personnel associated with the Title IV-E foster care program are set at
         50 and 75 percent respectively. As an allowable administrative cost, expenditures for the
         recruitment of foster homes and institutions is matched at 50 percent.

         Because the Title IV-E foster care program is an entitlement program, Federal
         expenditures for all Title IV-E foster care program expenses are open-ended, and will
         increase in accordance with State expenditures for Title IV-E eligible children. Federal
         expenditures for Title IV-E foster care program totaled $4 billion in fiscal year
         (FY) 1999 and $4.3 billion in FY 2000. Federal funding for the Title IV-E program




Recruiting Foster Parents                         3                                     OEI-07-00-00600
         totalled $4.4 billion in FY 2001. Estimated Federal funding for the program is
         $5.1 billion in FY 2002.

METHODOLOGY

         We used two mechanisms to conduct this inspection. We used a mail survey to solicit

         information from the foster care program managers for the 50 States, the District of

         Columbia, Puerto Rico, and the Virgin Islands to determine their efforts to recruit foster

         care families. Through this survey, we gathered information regarding State policies,

         practices, and processes for recruitment, and the barriers they are encountering in the

         effective recruitment and retention of families. We received completed surveys from

         41 foster care program managers. We did not receive completed surveys from the

         District of Columbia, Hawaii, Indiana, Louisiana, Maryland, Montana, Ohio, Oregon,

         Puerto Rico, Washington, or Wisconsin. The completed survey from Kentucky was

         received after our analysis was completed. However, these 12 entities account for only

         19 percent of the children in non-relative foster care homes and 9 percent of the total

         number of the children in foster care. 


         We judgementally selected a sample of five States (California, Florida, Illinois,

         New York, and Texas) for additional data collection. Based on FY 1999 AFCARS data

         reported to ACF, approximately 53 percent of the nation’s foster children reside in these

         5 States. In addition to geographic diversity, the five States provided a mix of both

         county administered (California and New York) and State administered (Florida, Illinois,

         and Texas) foster care programs. 


         In the five States, we collected more in-depth information about State recruitment

         methods through personal interviews with State foster care program managers, and focus

         group interviews with foster parents and child welfare staff. Child welfare staff

         interviewed included caseworkers, caseworker supervisors, foster care recruitment

         specialists, and staff from private foster care agencies with whom the State foster care

         agency contracts. At a minimum, we conducted one foster parent and one foster care

         program staff focus group interview in both an urban and rural location in each of the

         five States. In total, we conducted 14 foster parent and 11 child welfare staff focus

         groups in the 5 States, interviewing 115 foster parents and 107 child welfare staff

         respectively. 


         Even though some States have chosen to recruit jointly for adoptive and foster families as

         a result of ASFA, it should be noted that we made no attempt to address the impact of

         adoption on foster care recruitment. We also made no attempt to assess the impact of the

         Multiethnic Placement Act (MEPA) on the recruitment of foster families. The MEPA

         requires that agencies recruit foster and adoptive families that reflect the ethnic and racial

         diversity of children in the State in need of placement. 


         We conducted this inspection in accordance with the Quality Standards for Inspections

         issued by the President’s Council on Integrity and Efficiency.




Recruiting Foster Parents                          4                                      OEI-07-00-00600
                                      FINDINGS

         Our methodology offered us the unique opportunity to talk with many people involved in
         the foster care system. We discovered diverse approaches used to recruit foster families.
         We talked with veteran child welfare and private agency staff who provided us with a
         historical perspective of the foster care system as well as new caseworkers eager to
         present us with creative ideas for the future. We held children and we talked with their
         foster parents about what it was like to care for them. By listening to foster parents and
         child welfare agency personnel, we came to realize that joint recruitment for foster care
         and adoptive parents has become the norm. We learned about permanency planning and
         reunification goals, and that private agencies currently provide an appreciable proportion
         of our nation’s foster care services, including recruitment.

         Through focus groups, we encountered foster parents from many different walks of life
         who became involved with foster parenting for a variety of reasons. Several of them had
         known other foster parents and felt compelled to become involved; some had been
         looking for a way to give back to their community; others were unable to have children;
         and a few had been foster children themselves. Some parents had only recently began to
         foster; others considered themselves “seasoned” foster parents who, over the years, had
         cared for hundreds of foster children.

         Throughout this inspection we detected a common theme - one of continuous struggle to
         meet the needs of the children coming into the foster care system. As such, our goal was
         to identify relevant problems associated with recruiting families to care for these children
         and offer recommendations for improvement.

Recruitment Efforts do not Focus on Families Willing and
Able to Care for the Most Challenging Children
Needs of Foster Children are Changing

         Foster care program managers and child welfare staff said they are finding it increasingly
         difficult to find families for the foster children now entering the foster care system. In
         every focus group we conducted, we were told that the children coming into foster care
         today need more assistance than foster children of the past, and therefore are more
         difficult to place. They noted that children entering the foster care system are older and
         often have more mental, behavioral, and emotional challenges than in the past. They are
         often the victims of physical, sexual, or emotional abuse. Virtually all survey respondents
         indicate that it is difficult to place troubled adolescents and teens.

         Of the 41 States responding to our survey question about the “most-difficult-to-place
         groups” of children, foster care program managers identified adolescents with
         psychological or mental disabilities as the most difficult to place (31 percent).



Recruiting Foster Parents                         5                                      OEI-07-00-00600
         Furthermore, foster care program managers said adolescents in general comprised
         71 percent of the selections for “most-difficult-to-place” foster children. Other children
         for which finding foster care placements are difficult include sibling groups and children
         with mental, behavioral, and emotional challenges and children with physical and special
         needs (e.g., HIV positive children, babies addicted to drugs, babies with “shaken baby
         syndrome”). Twenty-four program managers responding to our survey said they have
         sometimes been forced to place children in residential or institutional foster care facilities
         because no appropriate family foster home was available. Eleven of those managers say
         this is a practice that is increasing, in spite of the fact that it is significantly more
         expensive.

The System has not Adapted to Changing Foster Care Needs

         Overall, child welfare workers and foster parents alike expressed concern with the foster
         care system’s failure to change recruitment strategies to keep pace with changing foster
         care needs. One case worker said recruiting agencies continue to “lead families to believe
         they can make a difference in a child’s life by simply providing them with love and a
         home . . . most of the children in foster care need much more than that.” Child welfare
         staff indicate this type of general recruitment brings in a lot of foster families, so the issue
         is not one of numbers. They say the result, however, is that their agencies are spending a
         lot of time and money licensing foster family homes which may never receive a child
         because these families are unwilling to accept adolescents, sibling groups, or children
         with severe psychological or medical needs. Child welfare staff and foster parents
         believe that to meet the needs of children coming into care, they must actively target their
         recruitment efforts to find homes capable and willing to accept these children. They
         caution that recruitment “should be tied to reality,” and expressed concern regarding the
         licensing of foster families unlikely to ever receive a child.

General Recruitment Practices are Unable to Meet the Needs of Children in Care

         Child welfare workers and foster parents alike believe that continued general recruitment
         will result in the licensing of an ever increasing number of homes unwilling or unable to
         accept many of the children in need of care. Child welfare workers said this results in
         licensed foster care families becoming frustrated when no children are placed in their
         homes. Child welfare workers and foster parents both said it also sends a message to
         others that the foster care system has a sufficient number of foster families to care for the
         children coming into care, when in fact there simply are not enough licensed homes
         willing to take the types of children in need of care. The result is underutilization of
         available foster care placements.

         Thirty-six (88 percent) of the 41 foster care program managers responding to our survey
         said they had licensed foster care families who were not currently caring for children.
         Child welfare workers and foster parents expressed great concern with the negative
         connotation associated with vacant beds in licensed foster homes. They said one of the
         reasons licensed families may not be caring for children is that the families had been



Recruiting Foster Parents                           6                                      OEI-07-00-00600
         licensed but were unwilling or unable to care for the children currently in need of care.
         Other reasons licensed foster families may not be caring for children included changes in
         family circumstances, families taking a break from fostering, families licensed only to
         provide respite care, or families under investigation for allegations of abuse.

         To address other factors agencies encounter in placing specific types of children,
         two States we visited have encouraged agency collaboration and resource sharing among
         various counties. By pooling their resources, agencies are able to commit more staff to
         locate and recruit families with the necessary skills who are willing to foster “more
         difficult” to place children. In addition, agencies are able to refer prospective foster
         families to the agencies responsible for serving children in their community.


States are Underutilizing Their Most Effective Recruitment
Tool - Foster Parents
         States are underutilizing the recruitment method foster parents and child welfare staff said
         was most effective -- foster parents. In every focus group interview conducted, both child
         welfare staff and foster parents said that it was not the billboards, television
         advertisements, public service announcements, or event booths that inspired people to
         become foster parents. Both said that foster parents themselves are a highly effective and
         valuable tool in encouraging others to pursue fostering. In their experience, people
         inquire about foster parenting based on personal needs and desires. While nine foster
         parents interviewed said they had in fact seen a billboard or a newspaper advertisement
         for foster care, they pursued fostering for a variety of other reasons. Those reasons
         included their inability to have children, the loss of a biological child, the desire for more
         children, the need to become a licensed caregiver for grandchildren or children already
         residing in their home, or because they knew and admired someone (e.g., their parents, a
         neighbor) who had been a foster parent. They all noted the decision to become a foster
         parent was not made based on a single advertisement or brochure. It was made over time.
         The encouragement from an existing foster parent can be instrumental in choosing to
         become a foster parent.

Foster Parents are the Most Effective Recruitment Tool

         Despite a lack of benchmarks or performance indicators to track successful recruitment
         practices, program managers in 20 States said they find foster parents to be one of the
         most successful methods of recruiting new foster families, 10 of which listed foster
         parents as their most cost effective recruitment tool. Child welfare staff in 1 State said
         that over half their successful recruits are referred to them by other foster parents, in
         contrast to a 10 percent recruitment rate for general recruiting. Child welfare staff said
         foster parents recruited by other foster parents are more likely to complete the pre-service
         training and become licensed. Other States report similar results. Yet, only seven States
         indicated they are using foster parents on a regular basis in their recruitment efforts.




Recruiting Foster Parents                          7                                      OEI-07-00-00600
         Although we did not collect information as to why States did not use foster parents more
         frequently, we did find that some States as well as private agencies are taking steps to
         increase the use of foster parents as recruiters. One of the five States we visited reports
         paying foster parents $10 per hour to staff recruitment booths at local events and fairs.
         Another State recently passed legislation which will enable them to use State funds to pay
         a $300 stipend for each successful referral from a foster parent. Child welfare staff
         interviewed said some private agencies offer recruitment stipends to foster parents, but
         the number that offer stipends is unknown. Despite these efforts, child welfare staff and
         foster parents said foster parents continue to be a resource that is highly underutilized.

States Concentrate Efforts on Costly Recruitment Methods

         States report focusing on a variety of other methods to recruit foster families, many of
         which are very costly. Of the 41 foster care program managers who responded to our
         survey, 38 said they use a combination of media (i.e., television public service
         announcements, radio campaigns, newspaper advertisements, magazine advertisements),
         38 use brochures, and 24 use billboards to recruit foster families. States also utilize a
         number of other recruitment tools which have printed agency names and telephone
         numbers. Those recruitment tools include magnets, bookmarks, coffee mugs, T-shirts,
         pins, rubber balls, grocery bags, calendars, and lapel pins. Other recruitment endeavors
         include making presentations to local civic and religious organizations and booths at State
         and county fairs, malls, school events, and health fairs. Program managers and child
         welfare workers believe the use of a variety of recruitment tools not only plants the seed
         about becoming a foster parent, but also reinforces those thoughts.

         In response to a question asking which recruitment methods they use most often, 14 foster
         care program managers said they use television and public service announcements.
         Foster care program managers in 8 of these 14 States said they believe television is one of
         the most successful recruitment methods, and 7 said television advertisements had proven
         to be the most successful recruitment method for the dollars expended. However, the
         eight States in which the program managers said television was the most successful
         recruitment tool had not developed benchmarks or performance indicators to measure the
         success of their recruitment efforts. Likewise, only two of the seven States that reported
         finding television advertisements the most cost-effective recruitment method had
         established benchmarks or performance indicators and three of the seven did not provide
         information on recruitment expenditures. As such, we question these States’ abilities to
         determine which recruitment methods are successful and which were in fact most cost
         effective.




Recruiting Foster Parents                         8                                    OEI-07-00-00600
Poor Public Perceptions of Foster Care and Cumbersome
Requirements Have a Negative Impact on Recruitment

         Virtually everyone we talked with said that poor public perceptions of foster care can
         discourage prospective foster parents. They also said the length of time between an
         individual’s first inquiry about becoming a foster parent and when they actually begin
         fostering is often a deterrent and greatly impacts State recruitment efforts. Cumbersome
         licensing and training requirements are frustrating as well. Both child welfare workers
         and foster parents said the longer the time between inquiry and placement, the more likely
         they are to lose potential recruits.

         Of the 41 foster care program managers responding to our survey, 14 (34 percent) said the
         length of time between submission of an application and placement had a negative effect
         on recruitment in their States. However, program managers in only 9 States (22 percent)
         said they had data available regarding barriers to recruitment in their State. Of those
         9 States, only 2 were among the States that had established performance indicators to
         measure the success of their recruitment efforts.

Public Perceptions

         When asked to choose from a list of potential recruitment barriers, 37 (90 percent) of the
         41 foster care program managers responding to our survey said poor perceptions and a
         lack of public understanding of foster care needs were barriers to effective recruitment.
         Child welfare staff and foster parents interviewed echoed those concerns. They said the
         media tends to portray foster parenting in a negative light, focusing on extreme cases of
         abuse, neglect, or death. They realize the media’s responsibility to report the news, but
         feel there is a disproportional amount of attention given to negative reporting on foster
         children and foster parenting, and that such reporting hinders recruitment efforts. They
         suggested that a national campaign be undertaken to promote the positive aspects of
         fostering.

Response to Inquiries

         Foster parents interviewed expressed frustration with the number of calls they placed to
         the recruiting agency before receiving a response. One foster parent said she placed
         8 phone calls to a recruiting agency’s 800 number before receiving a response from the
         recruiting agency, and several months followed before she was enrolled in a foster parent
         training class. Other foster parents report similar experiences and stressed the importance
         of acting on an individual’s enthusiasm. Virtually everyone interviewed expressed
         concern with the number of prospective foster parents that may be lost as the result of
         failed or untimely responses to initial inquiries.

         Foster parents, program managers, and child welfare staff agree that timely responses to
         prospective foster parent inquiries are important for successful recruitment. However, all



Recruiting Foster Parents                         9                                    OEI-07-00-00600
         note that the workloads of staff responsible for foster parent recruitment often make it
         difficult to respond to inquiries in a timely manner and even more difficult to respond to
         inquiries generated as the result of more intense recruitment campaigns. Survey
         respondents in 27 States indicate their recruitment efforts are “seasonal” and more intense
         during certain months (e.g., May is National Foster Parent month). Other States report
         more intense recruitment during the spring and fall, in September at back-to-school
         events, and at ongoing children’s sporting events. To accommodate higher than normal
         volume of inquiries during these campaigns, State foster care program managers and
         child welfare workers said they reassign staff and ask them to work together in an attempt
         to handle increased workloads.

         One of the five States we visited has established a foster care and adoption Internet
         website from which they have received an overwhelming response. In fact, the response
         has been so good, child welfare workers said they are “drowning in Internet inquiries”
         and expressed concern with their inability to respond to all inquiries. They said posting
         information on the website about healthy infants and children requiring minimal care has
         contributed to a high volume of inquiries, yet may be providing an incorrect picture of
         most children in need of care. Child welfare workers responsible for responding to these
         Internet inquiries said “recruitment is only as good as your response system,” and believe
         their inability to respond to calls or to respond in a timely manner also sends a message to
         the public that no new foster homes are needed.

Licensing Requirements

         The licensing requirements are a very important component of every State’s foster care
         program. The requirements ensure safety and compliance, and serve as a great
         opportunity to enhance foster parent and caseworker training and education. However,
         licensing requirements can become burdensome on foster parents.

         Despite that
         31 (76 percent) of the
         41 foster care program                         Examples of Licensing Frustrations
         managers who said their
                                       Other frustrations related to licensing include one State’s requirement
         States provide                that foster parents be “re-licensed” each year, a process which
         prospective foster            requires annual completion of a new application and home
         parents with licensing        inspection. In another State, child welfare workers said a new
         assistance, child welfare     medical form, soon to be implemented, may be a detriment to the
                                       licensing process. This new form requires the applying foster
         staff and foster parents
                                       parent’s physician to speculate on the future health of the applicant
         said stringent licensing      by asking whether or not they will be healthy enough to care for
         requirements still hinder     children in 5 years and if they will be able to lift 40 pound s 2 years
         the recruitment process.      from now. They expressed concern with physicians being able or
         Application forms to          willing to sp eculate on so meo ne’s future health.
         initiate the foster parent
         licensing process are
         lengthy, and completion of the application and other required paperwork often contributes
         to a significant amount of time between application and becoming licensed. While foster
         parents acknowledge the importance of licensing and safety requirements, they expressed

Recruiting Foster Parents                            10                                         OEI-07-00-00600
         frustration with the length of time between application and licensure. Child welfare
         workers echo those concerns and said it is not unusual for applicants to become so
         discouraged during this phase of the process that they decide not to foster.

         The costs associated with licensing may prove too high for some foster parents, making it
         difficult or impossible for some families to foster. Foster parents may be required to pay
         for things like physical examinations, finger printing, drug screening, background checks,
         radon testing, and water testing. These parents may also be unable to pay for the home
         safety improvements (e.g. fire extinguishers, first aid kits, refrigerator thermometers)
         necessary to bring them into compliance with licensing standards. Child welfare workers
         and foster parents alike noted that, while some licensing requirements are fairly
         significant (e.g., fencing a swimming pool or body of water), “one-size-fits-all” (e.g., only
         one child per bedroom) type requirements aren’t always necessary and can prove too
         costly for prospective foster parents, and are especially problematic when caring for
         sibling groups or difficult to place children. As a result, even though some States may
         offer assistance to help with the cost of some of these necessities, the cost of
         becoming a foster parent remains an obstacle for many families.

Training Requirements

         While foster care program managers, caseworkers, and foster parents agree that training is
         important and helpful, training requirements were reported to be a barrier to successful
         recruitment by 13 (32 percent) of the 41 foster care program managers responding to our
         survey. Training requirements were also of concern to foster parents in all 5 States
         visited. Prospective foster parents must commit to several weeks in training and must
         meet State training requirements before they can obtain their license. Foster care program
         managers in 13 States said prospective foster parents spend between 9 and12 weeks in
         training. In 12 States, the length of time spent in training exceeds 12 weeks. In addition
         to the time prospective foster parents must devote to meeting training requirements, they
         are expected to pay the costs associated with training (e.g., child care for their own
         children while they attend classes). Training foster parents in rural areas poses additional
         concerns regarding the availability of training classes, the distance prospective parents
         must travel to attend, and the cost of transportation to attend.

         Child welfare workers and foster parents also noted that training obligations often draw
         child welfare staff away from their other responsibilities, making it more difficult for
         them to respond to foster parents and the needs of the children in care. To ensure an
         effective investment of time spent in licensing and training for families and caseworkers,
         States suggest developing or enhancing the pre-screening process of prospective foster
         parents to allow them to remove themselves if they determine they cannot meet the
         standards. They said this could reduce the number of training and licensing commitments
         for child welfare staff.




Recruiting Foster Parents                         11                                     OEI-07-00-00600
States are Unable to Measure the Success of Their
Recruitment Efforts
         The lack of performance indicators and information about recruitment expenditures
         renders many States unable to measure the success of their recruitment efforts. Not only
         had many States not developed recruitment goals and established performance indicators,
         they were unable to track their expenditures for recruitment activities.

         Eighteen of the 41 foster care program managers responding to our survey said they had
         not developed goals for the recruitment of foster care families. Of the 21 program
         managers that said their States had developed recruitment goals, only 13 said their States
         had established benchmarks or performance indicators to measure the success of their
         recruitment efforts. Two States indicated they have established benchmarks or
         performance indicators but not recruitment goals. Two States provided no response to
         questions about recruitment goals or performance indicators.

         Further, of the States that established performance indicators, only two have developed
         indicators related to a targeted portion of the foster care population (i.e., teens and sibling
         groups), goals both of these States have been unable to meet. The recruitment goals most
         commonly reported are based on increasing the overall number of foster parents in an
         attempt to attract families willing to foster teens and adolescents with emotional or
         developmental disabilities, and children with psychological problems. In one State, the
         foster care program manager said it is left up to local offices to develop their own
         recruitment goals and objectives.

         In addition to the lack of recruitment goals and performance indicators, only 21 of the
         State foster care program managers responding to our survey were able to tell us how
         much of their Title IV-E foster care program administrative funds were spent on efforts to
         recruit foster care families in 1999. States have the discretion to appropriate a portion of
         their Title IV-E foster care program administrative funds to recruitment activities. When
         asked about county and local funds expended for recruitment, only 4 of the 11 States with
         county administered foster care programs could provide the information. States may be
         limited in their ability to assess the cost effectiveness of recruitment efforts if they cannot
         specifically report recruitment expenditures. Due to the limited responses and the
         variance of those responses, information regarding recruitment expenditures is not
         included in this report.




Recruiting Foster Parents                          12                                      OEI-07-00-00600
                            RECOMMENDATIONS
         States are using a variety of methods to recruit foster parents. However, they may be
         spending a significant amount on less effective endeavors and overlooking successful,
         less costly recruitment methods. To publicize the most cost effective recruitment
         campaigns, States, ACF, and national organizations should work in concert towards
         disseminating information focused on enhancing the effectiveness of foster care
         recruitment strategies, especially those targeting the needs of the children in care.


RECRUITMENT METHODS
         State and local agencies should review their current recruitment efforts. Based on
         information provided by State foster care program managers, child welfare staff, and
         foster parents, more successful recruiting could occur within existing resources.
         Although we did not assess the effectiveness of these suggestions, we offer several to
         elevate the discussion of cost-effective recruitment efforts.

          !	        Target recruitment efforts on parents for children who are the most difficult to
                    place in foster care by tailoring recruitment campaigns to recruit families willing
                    and able to care for these children;

          !         Offer incentives to foster parents for successfully recruiting other foster families;

          !         Use foster parents as facilitators during pre-service foster parent training classes;

          !	        Work collaboratively among foster care agencies to develop innovative
                    recruitment methods;

          !	        Develop partnerships with community and faith-based organizations to heighten
                    awareness of foster care needs and foster parenting opportunities;

          !	        Determine future foster care trends and needs and link to targeted recruitment
                    strategies;

          !	        Determine recruitment goals necessary to meet the current and future needs of
                    children in foster care (e.g., adolescents, teenagers, and physically or mentally
                    disabled);

          !	        Develop methods to assess the effectiveness of recruitment efforts (e.g., survey
                    foster parents and establish benchmarks and tracking data);

          !         Strive to sustain recruitment campaign efforts throughout the year;




Recruiting Foster Parents                            13                                      OEI-07-00-00600
          !	        Allow foster care agencies to recruit outside of their communities to maintain a
                    steady influx of new prospective foster families;

          !         Examine State licensing standards to identify barriers to recruitment; and

          !         Develop or enhance the pre-screening process of prospective foster parents.

Improve Public Perceptions
         The ACF and State foster care program managers should collaborate with national
         organizations focused on the welfare of children to promote more positive media
         coverage of foster care. These positive depictions can be augmented through local foster
         care program postings, newsletters, and partnerships with community based
         organizations, businesses, churches, and civic groups.

Enhance Technical Assistance
         Despite the successes that may be achieved through information sharing among the
         States, ACF should use its position as a Federal partner in the foster care system to
         enhance information sharing and assessment of recruitment efforts. Towards this end, we
         recommend the ACF provide State foster care program managers with guidance focused
         on enhancing the effectiveness of States’ recruitment efforts. Such guidance should
         include information to assist them in:

          !	        enhancing and implementing targeted recruitment efforts for difficult to place
                    children;

          !         utilizing foster parents as recruiters;

          !         identifying unmet and future recruitment needs;

          !         establishing recruitment goals;

          !         developing outcome-based recruitment plans;

          !	        identifying sources and using data to monitor and track recruitment
                    outcomes; and

          !	        determining what recruitment methods are most cost-effective and gather data to
                    calculate recruitment expenditures.




Recruiting Foster Parents                             14                                  OEI-07-00-00600
                            AGENCY COMMENTS
         We received comments on this report from the Administration for Children and Families
         (ACF). The ACF concurs with our findings and recommendations, stating that the
         information presented in this report will be useful to them in their continued efforts to
         meet the needs of children in need of care. Their comments emphasize ACF’s continued
         focus on the importance of children’s issues. In addition, ACF provided important
         contextual information and suggestions which served to enhance the report. We made
         revisions to the report based on ACF’s comments. The full text of their comments is
         contained in the appendix.




Recruiting Foster Parents                        15                                   OEI-07-00-00600
                                 APPENDIX




Recruiting Foster Parents   16       OEI-07-00-00600
Recruiting Foster Parents   17   OEI-07-00-00600
Recruiting Foster Parents   18   OEI-07-00-00600
Recruiting Foster Parents   19   OEI-07-00-00600
Recruiting Foster Parents   20   OEI-07-00-00600
Recruiting Foster Parents   21   OEI-07-00-00600
                            ACKNOWLEDGMENTS

This report was prepared under the direction of Brian T. Pattison, Regional Inspector General for
Evaluation and Inspections in Kansas City. Other principal Office of Evaluation and Inspections
staff who contributed include:

Deborah Walden, Project Leader                      Linda Hall, Program Specialist

Mike Craig, Program Analyst

Steve Milas, Program Analyst

Gary Reese, Program Analyst


Technical Assistance

Barbara Tedesco, Technical Support Staff




Recruiting Foster Parents                      22                                     OEI-07-00-00600
